                REPORTING OF THE FY 1999
    MILITARY RETIREMENT HEALTH BENEFITS LIABILITY
           IN THE DOD FINANCIAL STATEMENTS


Report No. D-2000-141                     June 9, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
IG                    Inspector General
                        Office of the Inspector General, DoD
Report No. D-2000-141                                                       June 9, 2000
   (Project No. D2000FA-0043.002)

           Reporting of the FY 1999 Military Retirement Health
            Benefits Liability in the DoD Financial Statements

                                    Executive Summary

Introduction. This audit is part of the “Audit of the Compilation of Financial Data for
Other Defense Organizations Into the FY 1999 DoD Agency-Wide Financial
Statements” (Project No. D2000FA-0043). We performed the audit in response to the
Chief Financial Officers Act of 1990, as amended by the Federal Financial
Management Act of 1994, which requires DoD and other Government agencies to
prepare annual audited financial statements. The FY 1999 DoD Agency-Wide financial
statements included the financial statements of a reporting entity entitled “Other
Defense Organizations-General Funds.” The military retirement health benefits
liability was reported on the Other Defense Organizations Balance Sheet. Military
retirement health benefits are post-retirement benefits that DoD provides to military
retirees and other eligible beneficiaries through the Purchased Care and DoD military
treatment facilities. For FY 1998, DoD reported $223.4 billion for the military
retirement health benefits liability estimate. After the DoD Agency-Wide and the
Federal Government FY 1998 financial statements were issued, the Office of the
Actuary, DoD, revised the military retirement health benefits liability estimate to
$185.9 billion for FY 1998. The $37 billion difference was primarily caused by using
more complete and current data. For FY 1999, DoD brought forward the FY 1998
liability estimate and reported $196.2 billion for the military retirement health benefits
liability estimate. The $196.2 billion unfunded liability represented 20 percent of the
$998.9 billion of liabilities included on the FY 1999 DoD Agency-Wide financial
statements.

Objectives. Our objective was to determine whether the FY 1999 military retirement
health benefits liability, as calculated by the Office of the Actuary, DoD, was properly
reported by the Defense Finance and Accounting Service Indianapolis Center,
Indianapolis, Indiana, on the FY 1999 Other Defense Organizations-General Funds
financial statements. The objective was covered under Project No. D-2000FA-0043.
See Appendix A for a discussion of the audit scope and methodology and a summary of
prior coverage related to the audit objective.

Results. The Defense Finance and Accounting Service Indianapolis Center did not
properly record and report the FY 1999 military retirement health benefits liability
estimate. As a result of accounting transactions made by the Defense Finance and
Accounting Service Indianapolis Center, the military retirement health benefits liability
was overstated by $10.3 billion, the cumulative results of operations were overstated
by $6.4 billion on the Balance Sheet, and program costs were overstated by
$16.7 billion on the Statement of Net Cost of the FY 1999 Other Defense
Organizations-General Funds financial statements. The overstatements materially
affected the FY 1999 DoD Agency-Wide financial statements. See the Finding section
for details of the audit results.

Summary of Recommendations. We recommend that the Director, Defense Financial
Accounting Service Indianapolis Center, make adjustments in the FY 2000 DoD
Agency-Wide financial statements to correct the overstatements of the FY 1999 liability
and its related expenses, and consult with the Under Secretary of Defense (Comptroller)
to determine how to treat and record the military retirement health benefits liability.

Management Comments. The Defense Financial Accounting Service concurred with
the finding and recommendations, stating that the Defense Financial Accounting Service
will correct the overstatement of the military retirement health benefits liability as a
prior period adjustment for the FY 2000. The Defense Financial Accounting Service
will also work with the Office of the Under Secretary of Defense (Comptroller) to
develop better guidance for recording the military retirement health benefits liability.
See the Finding section for a discussion of management comments, and the
Management Comments section for the text of the comments.




                                           ii
Table of Contents

Executive Summary                                                        i

Introduction
     Background                                                          1
     Objective                                                           3

Finding
     FY 1999 Military Retirement Health Benefits Liability               4

Appendixes
     A. Audit Process
          Scope                                                          9
          Methodology                                                   10
          Summary of Prior Coverage                                     10
     B. Accounting Transactions for Recording the Military Retirement   12
          Health Benefits Liability
     C. Report Distribution                                             15

Management Comments
     Defense Finance and Accounting Service                             17
Background
    Reporting Requirements. Public Law 101-576, the “Chief Financial Officers
    Act of 1990,” November 15, 1990, as amended by Public Law 103-356, the
    “Federal Financial Management Act of 1994,” October 13, 1994, requires DoD
    to prepare annual audited financial statements. In addition, the Federal
    Financial Management Act of 1994 requires the Secretary of the Treasury, in
    coordination with the Director, Office of Management and Budget, to prepare
    Government-wide financial statements.

    The FY 1999 DoD Agency-Wide financial statements include financial
    statements for a reporting entity entitled “Other Defense Organizations-General
    Funds” (referred to in this report as Other Defense Organizations.) Other
    Defense Organizations is a consolidation of financial information from various
    Defense organizations and funds that use the Treasury Index symbol 97
    (Department 97), including the Military Departments. The Inspector General,
    DoD, is not required to render a separate opinion on the financial statements for
    Other Defense Organizations. However, information from audits of the
    financial statements of Other Defense Organizations contributed to the
    disclaimer of opinion on the FY 1999 DoD Agency-Wide financial statements.

    Defense Finance Accounting Service Responsibilities. DoD Regulation
    7000.14-R, the “DoD Financial Management Regulation,” volume 6B, “Form
    and Content of the Department of Defense Financial Statements,” October 1999,
    requires the Defense Finance and Accounting Service (DFAS) to ensure that the
    preparation of financial reports is consistent, timely, and auditable, and that
    controls are in place to ensure the accuracy of the reports. Beginning in
    FY 1996, the DFAS Indianapolis Center, Indianapolis, Indiana, was responsible
    for consolidating financial data for the Other Defense Organizations, compiling
    the data, and preparing the financial statements for Department 97 funds.

    In compiling and preparing the financial statements for Other Defense
    Organizations, the DFAS Indianapolis Center did the following:

           •   obtained fiscal year-end trial balances and other financial information
               from the supporting accounting offices,

           •   consolidated the financial information received,

           •   made year-end departmental adjustments to post financial data to the
               accounting records, and

           •   made summary adjustments to change general ledger account
               balances to agree with the applicable balances shown on the year-end
               certified “Report on Budget Execution for TI [Treasury Index] 97
               Appropriations” and other information received from Other Defense
               Organizations.



                                        1
Office of Management and Budget Guidance. Office of Management and
Budget Bulletin No. 97-01, “Form and Content of Agency Financial
Statements,” as amended on November 20, 1998, provides guidance to agencies
on the preparation of financial statements. The Bulletin establishes guidance for
reporting pensions, other retirement benefits, and other post-employment
benefits. Other retirement benefits in DoD include all retirement benefits other
than pension plan benefits. The Bulletin further states that the entities
responsible for accounting for other retirement benefits should calculate and
report the liabilities and related expenses in accordance with the Statement of
Federal Financial Accounting Standard No. 5, “Accounting for Liabilities of the
Federal Government,” September 1995.

DoD Financial Management Regulation. DoD Regulation 7000.14-R, the
“DoD Financial Management Regulation,” volume 6B, “Form and Content of
the Department of Defense Financial Statements,” chapter 2, “General
Instructions for the Financial Statements,” October 1999, requires the DFAS, in
coordination with the DoD Components, to prepare financial statements.
Beginning in FY 1996, the DFAS Indianapolis Center was responsible for
preparing the financial statements for Treasury Index 97 funds. Other Defense
Organizations is a consolidation of financial information from various Defense
organizations and funds that use the Treasury Index 97 symbol. Chapter 4,
“Balance Sheet,” states that the military retirement health benefits liability will
be reported on the Other Defense Organizations Balance Sheet.

Joint Review. A DFAS memorandum, “Department of Defense Other Defense
Organizations General Fund Fiscal Year 1999 Financial Statements,”
December 6, 1999, provides for a joint review to resolve issues and obtain
concurrence on changes to the financial statements and notes. All involved
parties – including the Office of the Under Secretary of Defense (Comptroller),
customers, responsible managers, DFAS headquarters and the DFAS Centers,
and auditors – will have an opportunity to consistently and cooperatively
improve the statements and notes. The Office of the Actuary, DoD (referred to
in this report as the Actuary, DoD,) is responsible for the military retirement
health benefits liability estimate.

The Actuary, DoD. The Actuary, DoD, is responsible for applying theories
and techniques of actuarial science to DoD compensation systems, the largest of
which is the military retirement system. The Actuary, DoD, prepares an annual
actuarial valuation of the liabilities of the DoD Military Retirement Trust Fund,
from which military retirement benefits are paid. The Actuary, DoD, is also
responsible for the valuation of the military retirement health benefits liability
estimate.




                                     2
Objective
    Our objective was to determine whether the FY 1999 military retirement health
    benefits liability, as estimated by the Actuary, DoD, was properly reported by
    the DFAS Indianapolis Center on the FY 1999 Other Defense Organizations
    financial statements. Management control program was discussed in other
    reports. See Appendix A for a discussion of the audit scope and methodology
    and a summary of prior coverage related to the audit objective.




                                       3
            FY 1999 Military Retirement Health
            Benefits Liability
            The DFAS Indianapolis Center did not properly record and report the
            FY 1999 military retirement health benefits liability estimate. The
            condition occurred because the DFAS Indianapolis Center did not
            properly record a prior period adjustment for FY 1999 and did not
            adequately coordinate the reporting of the FY 1999 military retirement
            health benefits liability estimate with the Actuary, DoD, and the Office
            of the Under Secretary of Defense (Comptroller). As a result, the
            military retirement health benefits liability estimate was overstated by
            $10.3 billion, the cumulative results of operations were overstated by
            $6.4 billion on the Balance Sheet, and program costs were overstated by
            $16.7 billion on the Statement of Net Cost, as reported on the FY 1999
            Other Defense Organizations financial statements. The overstatements
            also affected the FY 1999 DoD Agency-Wide financial statements.



Preparation of the Military Retirement Health Benefits
  Liability Estimate
     FY 1997 was the first year that the military retirement health benefits liability
     estimate (hereafter referred to as the liability estimate) was reported on the
     DoD-wide consolidated financial statements. Numerous problems were
     discovered in the methodology and data used in preparing the initial liability
     estimate. The problems generated high-level concern in DoD and the General
     Accounting Office because of the effects on the DoD Agency-Wide financial
     statements and the Government-Wide financial statements. Since then, an
     extensive review process and implementation strategy have been devised by the
     Office of the Assistant Secretary of Defense (Health Affairs), the Under
     Secretary of Defense (Comptroller), and the Actuary, DoD. The review
     process and implementation strategy are designed to eventually generate a
     reliable liability estimate.

     For FY 1998, DoD reported $223.4 billion for the liability estimate. In
     November 1999, the Actuary, DoD, revised the liability estimate and concluded
     that it should have been $185.9 billion for FY 1998. The $37.5 billion
     difference was primarily caused by using more complete and current data. For
     FY 1999, the Actuary, DoD, brought forward the recalculated FY 1998 liability
     estimate of $185.9 billion and reported $196.2 billion for the liability estimate.
     The $196.2 billion unfunded liability represented 91 percent of the
     $215.8 billion of the liabilities on the FY 1999 Other Defense Organizations
     financial statements and 20 percent of the $998.9 billion of liabilities included
     on the FY 1999 DoD Agency-Wide financial statements.

     Calculation of FY 1999 Liability Estimate. The FY 1999 liability estimate
     was based on a recalculated FY 1998 liability estimate. The original FY 1998
                                         4
estimate of $223.4 billion was recalculated by the Actuary, DoD, using more
complete data. The recalculation decreased the FY 1998 estimate by
$37.5 billion. For FY 1999, the DFAS Indianapolis Center was required to
record the FY 1999 liability estimate, including a prior period adjustment for
the recalculated FY 1998 liability. The table below summarizes the calculation
of the FY 1999 liability by the Actuary, DoD.


  Calculation of the FY 1999 Military Retirement Health Benefits Liability

               Calculation of the Military                                               Amount
         Retirement Health Benefits Liability                                      ($ in billions)
 FY 1998 liability reported                                                                223.4
 Prior period adjustment (actuarial decrease)                                               (37.5)
 Recalculated FY 1998 liability                                                             185.9
 Liability expense for current period (FY 1999)*                                             16.7
 Benefit payment for FY 1999                                                                 (6.4)
 FY 1999 liability                                                                          196.2


 *This amount is the program benefit cost calculated by the Actuary, DoD, for FY 1999. It
 includes period interest for the liability of $12 billion and service cost of $4.7 billion, for a
 total of $16.7 billion. Interest cost is the amount of imputed interest that would be charged in
 FY 1999 on the outstanding liability. Service cost is the amount of medical health entitlement
 that current Service members earned in FY 1999.



FY 1999 Liability Estimate Recorded. The DFAS Indianapolis Center did not
correctly record and report the liability and its related expenses for FY 1999.
The DFAS Indianapolis Center’s initial accounting transactions recording the
liability estimate did not classify the change in the FY 1998 liability estimate as
a prior period adjustment. The DFAS Indianapolis Center transactions also
duplicated $6.4 billion of prior period benefit expense. Before the preparation
of the Other Defense Organizations financial statements and the DoD
Agency-Wide financial statements, auditors from the Inspector General (IG),
DoD, provided the correct accounting transactions to the DFAS Indianapolis
Center. Appendix B lists the incorrect accounting transactions prepared by the
DFAS Indianapolis Center and the correct accounting transactions for recording
the liability estimate for FY 1999.

        Prior Period Adjustment. The correct transactions would have
classified the change in the FY 1998 liability estimate as a prior period
adjustment that affected only the FY 1999 Balance Sheet. Initially, accounting
transactions at the DFAS Indianapolis Center classified the change in the FY
1998 liability estimate as FY 1999 current operating expense on the FY 1999
Statement of Net Costs. On approval from the Under Secretary of Defense

                                            5
     (Comptroller), the DFAS Indianapolis Center recorded the change in the
     FY 1998 liability estimate as a prior period adjustment. However, because the
     DFAS Indianapolis Center did not record transactions that would correct the
     FY 1999 current operating expense on the Statement of Net Costs, the prior
     period adjustment was recorded incorrectly.

             Duplicate Benefit Expense. The Actuary, DoD, reported to the DFAS
     Indianapolis Center $6.4 billion in payments for medical care benefits incurred
     by retirees for FY 1999.

                     Normal Accounting for Benefits Payment. In accounting
     practice, the service cost expenses that create the liability are usually recorded
     in one accounting period, and the actual payments for the expense are recorded
     in subsequent periods. Normally, the benefit payments are recorded as a
     reduction to the liability and not as an expense or a change in cumulative results
     of operations in the period when the payments were made. The $6.4 billion
     benefit payment incurred in FY 1999 was for expenses already included in prior
     period service costs. Therefore, the $6.4 billion is a reduction to the liability
     for the current year, not an expense.

                    DFAS Indianapolis Center’s Accounting for Benefits
     Payment. During the current operating year, FY 1999, the $6.4 billion benefits
     payment was captured as an expense in the Defense Health Program trial
     balance. The DFAS Indianapolis Center recorded the $6.4 billion as an increase
     in cumulative results of operations (an equity account) without explanation.
     This was incorrect; DFAS should have reduced the FY 1999 Defense Health
     Program cost and liability by $6.4 billion. Although this amount was paid for
     retirement health care in FY 1999, the related service cost was expensed in the
     prior period.



Coordination in Reporting the Liability
     DFAS and the Actuary, DoD. DFAS did not adequately coordinate with the
     Actuary, DoD, in reporting the FY 1999 liability estimate. In November 1999,
     the Actuary, DoD, reported the $37.5 billion decrease in the FY 1998 liability
     estimate to DFAS headquarters. DFAS headquarters should have instructed the
     DFAS Indianapolis Center to record a prior period adjustment to the FY 1999
     financial statements. However, the failure to record the $37.5 billion decrease
     in the FY 1998 liability estimate could have been corrected if the DFAS
     Indianapolis Center had coordinated with the Actuary, DoD.

     According to DFAS guidance, financial statements and notes should be jointly
     reviewed by all involved parties, such as responsible managers, DFAS
     personnel, and auditors. The Actuary, DoD, is responsible for the valuation of
     the liability estimate. The Actuary, DoD, was not consulted as part of the joint
     review of the FY 1999 DoD Agency-Wide financial statements. Because of this
     oversight, the overstatement of the liability estimate by $10.3 billion was not
     noted, and therefore was not corrected. In addition, if the DFAS Indianapolis
                                         6
     Center had adequately coordinated with the Actuary, DoD, the $37.5 billion
     change in the FY 1998 liability estimate would have been originally recorded as
     a prior period adjustment.

     DFAS and the Office of the Under Secretary of Defense (Comptroller). We
     reviewed a draft of the FY 1999 Other Defense Organizations financial
     statements and related accounting transactions prepared by the DFAS
     Indianapolis Center to record the liability estimate. On January 13, 2000, after
     reviewing the draft, we recommended that the DFAS Indianapolis Center adjust
     accounting transactions to properly record the liability estimate. Our
     recommendation included recording the $37.5 billion change in the FY 1998
     liability estimate as a prior period adjustment. On approval from the Under
     Secretary of Defense (Comptroller), the DFAS Indianapolis Center recorded the
     change in the FY 1998 liability estimate as a prior period adjustment. However,
     DFAS did not discuss our other recommended adjustments with the Office of
     the Under Secretary of Defense (Comptroller) and did not make the
     adjustments. The DFAS Indianapolis Center did not make our recommended
     adjustments because of the lack of examples and specific guidance in DoD
     Regulation 7000.14-R. We discussed this problem with accounting policy
     personnel in the Office of the Under Secretary of Defense (Comptroller), and
     they agreed to incorporate more specific guidance in DoD Regulation 7000.14-R
     for use in preparing the FY 2000 financial statements.



Overall Effect on Financial Statements
     On the FY 1999 Other Defense Organizations financial statements, the DFAS
     Indianapolis Center reported a total of $206.5 billion for the military retirement
     health benefits liability, including $196.2 billion for long-term liability and
     $10.3 billion for short-term liability. The military retirement health benefits
     liability was overstated by $10.3 billion on the Balance Sheet. In addition,
     cumulative results of operations were overstated by $6.4 billion on the Balance
     Sheet, and program costs were overstated by $16.7 billion on the Statement of
     Net Cost.



Recommendations and Management Comments
     1. We recommend that the Director, Defense Finance and Accounting
     Service Indianapolis Center, record the overstatements in the military
     retirement health benefits liability and its related expense on the FY 1999
     Other Defense Organizations-General Funds financial statements as a prior
     period adjustment for FY 2000.

     Management Comments. The Defense Finance and Accounting Service
     concurred and stated that the Defense Finance and Accounting Service

                                          7
Sustaining Forces – Indianapolis will correct the overstatement of the military
retirement health benefits liability as a prior period adjustment for the FY 2000.
The estimated completion date is November 15, 2000.

2. We recommend that the Director, Defense Finance and Accounting
Service Indianapolis Center, obtain specific accounting guidance from the
Under Secretary of Defense (Comptroller) on how to treat and record the
military retirement health benefits liability.

Management Comments. The Defense Finance and Accounting Service
concurred and stated that the Defense Finance and Accounting Service will work
with the Under Secretary of Defense (Comptroller) to develop better guidance
for recording the military retirement health benefits liability. The estimated
completion date is September 30, 2000.




                                     8
Appendix A. Audit Process

Scope
    Work Performed. This audit is part of the “Audit of the Compilation of
    Financial Data for Other Defense Organizations Into the FY 1999 DoD Agency-
    Wide Financial Statements” (Project No. D2000FA-0043). This audit focused
    on whether the FY 1999 military retirement health benefits liability was
    correctly reported on the FY 1999 Other Defense Organizations General Fund
    financial statements. For FY 1999, the Actuary, DoD, reported $196.2 billion
    for the military retirement health benefits liability. We reviewed the FY 1999
    Other Defense Organizations financial statements, related notes, and journal
    entries prepared by the DFAS Indianapolis Center in recording and reporting the
    FY 1999 military retirement health benefits liability.

    Limitations to Scope. We did not review the management control program
    because it was discussed in prior audits relating to the military retirement health
    benefits liability. (See the Summary of Prior Coverage for reports on the
    liability.) The management control program for the compilation of financial
    data for Other Defense Organizations into the FY 1999 DoD Agency-Wide
    financial statements was discussed in IG, DoD, Report No. D-2000-103,
    March 16, 2000.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.5.1.)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2.)




                                         9
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           • Financial Management Functional Area. Objective: Reengineer
             DoD business practices. Goal: Improve data standardization of
             finance and accounting data items. (FM-4.4)

           • Financial Management Functional Area. Objective: Strengthen
             internal controls. Goal: Improve compliance with the Federal
             Managers’ Financial Integrity Act of 1982. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Defense Financial Management high-risk area.

Methodology
    Use of Computer-Processed Data. We relied on computer-processed data
    from the DFAS Indianapolis Center to determine whether the military retirement
    health benefits liability was correctly reported on the FY 1999 Other Defense
    Organizations financial statements and related notes. We did not validate the
    reliability of the computer-processed data because we limited our use of the data
    to determining the adequacy of the coordination between the DFAS Indianapolis
    Center and the Actuary, DoD. However, not validating the reliability of DFAS
    computer-processed data did not materially affect the results of the audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from January through February 1999 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    IG, DoD.
    Contacts During the Audit. We visited or contacted organizations within
    DoD. Further details are available on request.



Summary of Prior Coverage
    The General Accounting Office and the IG, DoD, have conducted multiple
    reviews related to financial statement issues. General Accounting Office reports
    can be accessed on the Internet at http://www.gao.gov. IG, DoD, reports can
    be accessed on the Internet at http://www.dodig.osd.mil. The IG, DoD, has
    issued three audit reports on the military retirement health benefits liability:




                                       10
•   IG, DoD, Report No. D-2000-090, “Inpatient Data Supporting the
    DoD Military Retirement Health Benefits Liability Estimate,”
    March 1, 2000.

•   IG, DoD, Report No. 99-127, “Data Supporting the FY 1998 DoD
    Military Retirement Health Benefits Liability Estimate,”
    April 7, 1999.

•   IG, DoD, Report No. 99-010, “DoD Military Retirement Health
    Benefits Liability for FY 1997,” October 13, 1998.




                          11
Appendix B. Accounting Transactions for
            Recording the Military Retirement
            Health Benefits Liability
   The following is a summary of the results of accounting transactions prepared
   by the DFAS Indianapolis Center to record the military retirement health
   benefits liability estimate for FY 1999. A table on the last page of this
   Appendix shows the accounting transactions prepared by the DFAS Indianapolis
   Center and transactions recommended by the IG, DoD.

   Reestablishing the Liability. The DFAS Indianapolis Center had not
   established a permanent liability account for military retirement health benefits.
   Therefore, the DFAS Indianapolis Center had to reestablish the liability every
   year. Transactions A and B, prepared by the DFAS Indianapolis Center, were
   to record the prior year ending balance as current year beginning balance. Our
   recommended transaction A, on the last page of this Appendix, was the only
   transaction necessary to reestablish the liability.

   Prior Period Adjustment. The DFAS Indianapolis Center initially failed to
   classify the decrease in FY 1998 liability estimate as a prior period adjustment.
   To record the decrease in actuarial liability, transaction C from the DFAS
   Indianapolis Center misclassified the decrease in the FY 1998 liability estimate
   as an FY 1999 current operating expense on the FY 1999 Statement of Net
   Costs. On approval from the Under Secretary of Defense (Comptroller), the
   DFAS Indianapolis Center prepared transaction F in an attempt to record the
   change in FY 1998 liability as a prior period adjustment. However, because the
   DFAS Indianapolis Center did not record transactions to correct the FY 1999
   current operating expense on the Statement of Net Costs, the prior period
   adjustment was recorded incorrectly. Our recommended transaction C properly
   recorded the decrease in FY 1998 liability estimate as a prior period adjustment.

   FY 1999 Retirement Health Benefits Expense. Transaction D, prepared by
   the DFAS Indianapolis Center, attempted to record the current year benefits
   expense. However, transaction D from the DFAS Indianapolis Center
   incorrectly increased other accrued liabilities and should not have been posted to
   cumulative results of operations. Our recommended transaction D properly
   recorded the current year benefits expense.

   FY 1999 Benefits Payment. The DFAS Indianapolis Center failed to record
   the FY 1999 benefits payment of $6.4 billion as a reduction to the liability and
   an adjustment to the benefits expense that was recorded in the prior year. We
   recommended transaction E to properly account for the FY 1999 benefits
   payment.




                                       12
As a result of the transactions by the DFAS Indianapolis Center, the military
retirement health benefits liability was overstated by $10.3 billion on the
Balance Sheet, cumulative results of operations was overstated by $6.4 billion
on the Balance Sheet, and program costs were overstated by $16.7 billion on the
Statement of Net Cost, as reported on the FY 1999 Other Defense Organizations
financial statements.




                                  13
14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer
     Director for Accounting Policy
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)
  Office of the Actuary, DoD
Director, Defense Logistics Studies Information Exchange

Department of the Army
Surgeon General, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Surgeon General, Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General, Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis Center
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          15
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          16
Defense Finance and Accounting Service
Comments




                     17
18
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     F. Jay Lane
     Salvatore D. Guli
     Charles J. Richardson
     Walter R. Loder
     Linh Truong
     Susanne B. Allen
